         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Oak Ridge National Laboratory's
Waste Diversion Efforts




OAS-L-12-06                          July 2012
                                   Department of Energy
                                     Washington, DC 20585
                                            July 20, 2012


MEMORANDUM FOR THE ACTING MANAGER, OAK RIDGE OFFICE


FROM:                     Daniel M. Weeber, Director
                          Eastern Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Oak Ridge National Laboratory's
                          Waste Diversion Efforts"

BACKGROUND

Executive Order (E.O.) 13423, Strengthening Federal Environmental, Energy, and
Transportation Management, mandates that each Federal facility maintain a cost-effective waste
prevention and recycling program. Further, E.O. 13514, Federal Leadership in Environmental,
Energy, and Economic Performance, requires that Federal agencies achieve a 50 percent
diversion rate for construction and demolition materials and debris, and a 50 percent rate for
non-hazardous solid waste by the end of Fiscal Year (FY) 2015. Waste diversion includes the
prevention and reduction of generated waste through recycling, reusing or composting.
Diverting materials from the waste stream generates a host of benefits including conserving
energy, reducing disposal costs and contributing to a cleaner, safer environment. The
Department of Energy tracks its waste diversion progress via the Pollution Prevention Tracking
and Reporting System.

The Oak Ridge National Laboratory (ORNL) Pollution Prevention Program (Program) plays a
vital role in the Department's overall waste diversion efforts. During FY 2011, ORNL generated
over 9,500 metric tons of non-hazardous solid waste, including debris from construction and
demolition projects. Because of the environmental, financial and social benefits of reducing the
amount of waste sent to the landfill, we initiated this audit to determine whether ORNL was
effectively diverting materials from the waste stream. This is the first in a series of reports on the
Department's waste diversion efforts at select sites.

CONCLUSIONS AND OBSERVATIONS

We found that ORNL had an established Program that effectively diverted materials from
landfills and contributed to the Department's overall waste diversion effort, primarily through
recycling and reusing materials. In our review of ORNL's FY 2011 data, we found that it
recycled or reused over 5,100 of its 9,500 metric tons of solid waste, and thus diverted it from
landfill disposal. For example, ORNL diverted 62 percent of its construction and demolition
debris, thus exceeding the 50 percent target established by E.O. 13514 and meeting the
Department's FY 2015 target 4 years earlier than required. Further, ORNL diverted 26 percent
of its non-hazardous solid waste. In an effort to meet the 50 percent target for diversion of non-
hazardous solid waste by FY 2015, ORNL also identified the need for additional initiatives and
developed plans to execute those strategies.

                              ORNL's Pollution Prevention Program

ORNL had a well established Program to facilitate waste diversion activities. Specifically, the
ORNL Program incorporated pollution prevention philosophies throughout the organization
through employee training, subcontract clauses and corporate commitments. Individual
employee responsibility for pollution prevention was described in the Environmental
Management System Awareness Training, a requirement for ORNL employees. ORNL also
required subcontractors working on-site to adhere to similar standards. ORNL's construction
subcontracts, for instance, required that excess construction material be recycled. The Program
also reflected a corporate commitment in its pollution prevention plan that described how ORNL
intended to achieve Program objectives. The plan documented the development and continuing
expansion of the ORNL Program and described ORNL's use of objectives, targets and strategies
for conserving resources. For example, according to Program officials, one such strategy was
ORNL's recent decision to eliminate the purchase of bottled water, except for instances where
staff, such as maintenance workers, did not have access to plumbed water.

ORNL's Program facilitated the diversion of significant portions of waste from the landfill.
Specifically, in FY 2011, ORNL diverted 4,620 metric tons of construction and demolition
debris, one of its largest waste streams, from landfill disposal through reuse and recycling
efforts. The materials diverted from the landfill included metal, wood, drywall and crushed
asphalt. As a result of these diversion efforts, ORNL disposed of only 2,850 metric tons in
landfills, or 38 percent of the total amount of construction and demolition materials generated.
ORNL officials credited its success, in part, to the requirement that construction subcontractors
recycle as much debris as possible.

In addition to its successful diversion of construction and demolition debris, ORNL diverted
530 of 2,060 metric tons, or approximately 26 percent, of its non-hazardous solid waste in FY
2011. While ORNL had not yet achieved a 50 percent diversion rate, ORNL officials told us that
they had continuously looked for ways to expand its existing Program and improve recycling
efforts. For example, Program staff conducted a study in which they sorted through the contents
of office trash destined for landfill disposal and found that 30 percent of the waste could have
been recycled in established programs. ORNL officials stated that collection containers were
subsequently placed in offices or work areas to ensure that employees had access to recycle bins.
Further, we noted that ORNL began recycling discarded packing foam, a material not previously
part of ORNL's recycling stream.

While ORNL's performance in FY 2011 was notable, we did find several minor inconsistencies
between planned activities and actual performance. For example, we found that ORNL had not
conducted pollution prevention opportunity assessments despite the fact that the Program
emphasized the importance of such assessments in helping to identify waste diversion
opportunities. ORNL officials stated that it had been difficult to perform assessments due to the
non-routine nature of laboratory work. As an alternative, officials requested selected divisions to

                                                 2
develop, document and implement plans to reduce or eliminate the environmental impacts of its
activities. This request permitted divisions to select from a wide-range of activities including
commitments associated with waste generation, water or air emissions, and energy efficiency.
We noted that this approach resulted in several divisions implementing additional waste
diversion activities.

Because of ORNL's progress in this area, formal recommendations are not being made in this
report and a response is not required. We appreciate the cooperation of your staff and the
various Departmental personnel that provided information or assistance.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Science
    Chief of Staff
    Laboratory Director, Oak Ridge National Laboratory




                                                3
                                                                                      Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether Oak Ridge National Laboratory (ORNL)
was effectively diverting materials from the waste stream.

SCOPE

The audit was performed from October 2011 through June 2012. We conducted work at ORNL
in Oak Ridge, Tennessee, and obtained information from the Office of Health, Safety, and
Security in Washington, DC.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed laws and regulations and policies and procedures relevant to Pollution
        Prevention and waste diversion;

    •   Reviewed ORNL's Pollution Prevention Plan, Site Sustainability Plan and selected
        recycling purchase orders;

    •   Held discussions with ORNL Pollution Prevention officials;

    •   Interviewed key personnel at the Department's Office of Health, Safety and Security;
        and,

    •   Reviewed selected ORNL FY 2011 Pollution Prevention Tracking and Reporting
        System entries.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, the audit included tests
of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. In particular, we assessed the implementation of the GPRA Modernization Act of 2010
as it relates to the audit objective and found that the Department had not established performance
measures related to pollution prevention. Also, we conducted an assessment of computer-
processed data relevant to our audit objective and performed tests to determine that it was
sufficiently reliable for our purposes.

Management waived an exit conference on June 14, 2012.



                                                4
                                                                    IG Report No. OAS-L-12-06

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
